September 25, 2003

SCOTT TUCKER
MANAGER, SAN FRANCISCO DISTRICT

SUBJECT:     Transmittal of Audit Report – Efficiency of Work Performed by Business
             Mail Entry Clerks in the San Francisco Business Mail Entry Unit
             (Report Number AO-AR-03-002)

This report presents the results of our audit of work performed by business mail entry
employees in the San Francisco Business Mail Entry Unit (Project Number
03WG002AO000). This self-initiated audit was conducted jointly with Pacific Area
Finance and Marketing managers in response to analytical observations we made
during recent audits of business mail entry staffing in the Western and Pacific Areas.

Our audit disclosed that workhours necessary to accept business mailings in the
San Francisco Business Mail Entry Unit should be reduced. During the audit, Postal
Service management agreed to aggressively reduce business mail entry workhours
by 18,000 hours by the end of fiscal year 2006. We calculated that the financial
impact of this reduction in workhours could produce an estimated cost avoidance
of approximately $6.9 million over 10 years. We recommended the manager,
San Francisco District reduce hours as planned and reevaluate staffing needs
periodically. Management agreed with our finding and recommendations and actions
taken or planned should correct the issues identified in the report. Management’s
comments and our evaluation of these comments are included in the report.

The Office of Inspector General (OIG) considers recommendations 1 and 2 significant
and, therefore, requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective action(s) are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact Kim H. Stroud,
director, Audit Operations and Follow-up, at (703) 248-2100 or me at (703) 248-2300.



John M. Seeba
Assistant Inspector General
  for Audit

Attachment

cc: John A. Rapp
    Alfred Iniguez
    Winifred G. Groux
    Marco F. Lari
    Susan M. Duchek
Efficiency of Work Performed by Business Mail Entry                         AO-AR-03-002
 Clerks in the San Francisco Business Mail Entry Unit


                                    TABLE OF CONTENTS

 Executive Summary                                                                    i

 Part I

 Introduction                                                                        1

     Background                                                                      1
     Objective, Scope, and Methodology                                               2
     Prior Audit Coverage                                                            2

 Part II

 Audit Results                                                                       4

     Assessment of Employees’ Workhours                                              4
      Management’s Actions                                                           5
     Recommendations                                                                 6
     Management’s Comments                                                           6
     Evaluation of Management’s Comments                                             6

 Appendix A.        Fiscal Year 2002 Mailings per Workhour and Trend                 7
                    Comparison for the San Francisco Business Mail Entry
                    Unit

Appendix B.         Fiscal Year 2002 Total Business Mail Acceptance                  8
                    Staffing (LDC 79) Comparison

 Appendix C.        San Francisco Business Mail Entry Unit Cost Avoidance            9

 Appendix D.         Management’s Comments                                          10
Efficiency of Work Performed by Business Mail Entry                                 AO-AR-03-002
 Clerks in the San Francisco Business Mail Entry Unit


                                   EXECUTIVE SUMMARY
 Introduction                   The Office of Inspector General assessed the efficiency of
                                work performed by business mail entry employees in the
                                San Francisco Business Mail Entry Unit. This self-initiated
                                audit was conducted jointly with Pacific Area Finance and
                                Marketing managers in response to analytical observations
                                we made during recent audits of business mail entry staffing
                                in the Western and Pacific Areas.

 Results in Brief               Our audit disclosed that workhours at the San Francisco
                                Business Mail Entry Unit were excessive and could be
                                reduced by more than a third of fiscal year (FY) 2002 levels.
                                Although Postal Service policies require the efficient use of
                                workhours, management did not periodically evaluate
                                staffing levels to the degree necessary to improve
                                productivity.

                                As a result of our audit, Postal Service management
                                agreed to reduce business mail entry workhours in the
                                San Francisco Business Mail Entry Unit by at least
                                18,000 hours by the end of FY 2006. This will be done
                                through employee attrition and would raise productivity
                                closer to benchmarked averages for comparable business
                                mail entry units. The financial impact of this workhour
                                reduction could also produce a cost avoidance for the
                                Postal Service of approximately $6.9 million over 10 years
                                based on Postal Service cash flow methodology.

 Summary of                     We recommended the manager, San Francisco District,
 Recommendations                reduce workhours as planned, and periodically evaluate
                                staffing needs.

 Summary of                     Management agreed with the finding and recommendations.
 Management’s                   Management’s comments, in their entirety, are included in
 Comments                       Appendix D of this report.

 Overall Evaluation of          Management’s comments are responsive to the
 Management’s                   recommendations. Management’s actions, taken or
 Comments                       planned, should correct the issues identified in the report.




                                                        i
Efficiency of Work Performed by Business Mail Entry                                     AO-AR-03-002
 Clerks in the San Francisco Business Mail Entry Unit


                                             INTRODUCTION
      Background                    Business mail entry units are located in Postal Service
                                    facilities nationwide. Business mail entry unit clerks receive
                                    business mailers' bulk, presorted, and permit mail for
                                    acceptance. Business mail is accepted using dedicated
                                    platform space, office space, and a staging area on the
                                    workroom floor. A business mail entry clerk, using
                                    prescribed acceptance procedures, typically performs
                                    mailing verifications. Verification procedures include
                                    verifying fees and funds on deposit, reviewing contents of
                                    mailpieces, checking of labels and mail make up, and
                                    completing postage verification.

                                    Business mail entry clerks are primarily located at a general
                                    mail facility. However, some clerks are located or operate
                                    at the bulk mail centers, detached mail units, associated
                                    post offices, and satellite offices. These secondary facilities
                                    provide limited acceptance and verification of business mail
                                    in support of the central business mail entry unit located at
                                    the general mail facility.

                                    As shown in Diagram A,1 the San Francisco business
                                    mailings have steadily declined on average since fiscal year
                                    (FY) 2000.

                                    Diagram A. Total Mailings Accepted.




1
    Web Enterprise Information System as of accounting period 11, FY 2003.



                                                           1
Efficiency of Work Performed by Business Mail Entry                                 AO-AR-03-002
 Clerks in the San Francisco Business Mail Entry Unit


   Objective, Scope,            The objective of our audit was to assess the efficiency
   and Methodology              of work performed by business mail entry clerks in the
                                San Francisco Business Mail Entry Unit. To assess the
                                efficiency of work performed, we observed business mail
                                entry unit operations and analyzed business mail volumes
                                and workhours. In addition, we benchmarked the
                                San Francisco unit’s revenues and mailings with
                                comparable business mail entry units.

                                The business mail entry unit in San Francisco had
                                operations at a central acceptance site in the general mail
                                facility, a detached mail unit at a customer site, and at the
                                International Service Center.

                                We relied on Postal Service operational systems, including
                                the National WorkHour Reporting System, Standard Field
                                Accounting System Unit Revenue Data, Web Enterprise
                                Information System, and the Permit System to perform our
                                analysis of mailings and workhours. We did not test the
                                validity of controls over these systems. However, we
                                checked the accuracy of data by confirming our analysis
                                and results with Postal Service managers. Nothing came to
                                our attention to suggest that data used was unreliable.
                                Therefore, we believe the computer-generated data was
                                sufficiently reliable to support the opinions, conclusions, and
                                recommendations in this report.

                                This audit was conducted from April 2003 through
                                September 2003 in accordance with generally accepted
                                government auditing standards, and included such tests
                                of internal controls as were considered necessary under
                                the circumstances. We discussed our conclusions and
                                observations with appropriate management officials and
                                included their comments, where appropriate.

   Prior Audit                  We have issued three prior audit reports on the efficiency of
   Coverage                     business mail entry units.

                                Work Performed by Business Mail Entry Employees in the
                                Colorado Wyoming Performance Cluster (Report Number
                                CQ-AR-02-001, dated September 26, 2002), disclosed that
                                many Denver Bulk Mail Center and Denver General Mail
                                Facility business mail entry employees were not needed to
                                accept business mailings. As a result, management could
                                save an estimated $1 million annually. We recommended


                                                        2
Efficiency of Work Performed by Business Mail Entry                               AO-AR-03-002
 Clerks in the San Francisco Business Mail Entry Unit


                                management oversee the consolidation of business mail
                                entry operations and reduce staff as planned, and
                                reevaluate staffing to determine if further staff reductions
                                are necessary. Management agreed and the actions taken
                                and planned are responsive to the issues identified in the
                                report.

                                Work Performed by Business Mail Entry Employees in the
                                Seattle, Minneapolis, and Des Moines Bulk Mail Centers
                                (Report Number CQ-AR-03-001, dated March 28, 2003),
                                disclosed that workhours necessary to accept business
                                mailings at these facilities should be reduced. As a result,
                                management could save an estimated $588,730 through
                                the end of FY 2005 when its planned workhour reductions
                                are fully implemented. We recommended senior plant
                                managers of the Seattle, Minneapolis, and Des Moines Bulk
                                Mail Centers reduce hours, reevaluate staffing needs
                                periodically, and ensure that appropriately trained personnel
                                perform acceptance functions. Management agreed and
                                the actions taken and planned are responsive to the issues
                                identified in the report.

                                Efficiency of Work Performed by Business Mail Entry
                                Clerks Within the Los Angeles District (Report Number
                                AO-AR-03-001, dated July 31, 2003), disclosed that
                                workhours necessary to accept business mailings at the
                                facilities we reviewed should be reduced. As a result,
                                management could save an estimated $9.26 million over
                                10 years by reducing workhours by 28,800 hours by the
                                end of FY 2005. We recommended the manager, Los
                                Angeles District reduce hours and reevaluate staffing
                                needs periodically. Management agreed with our
                                recommendations and has initiatives in progress
                                addressing the issues identified in the report.




                                                        3
Efficiency of Work Performed by Business Mail Entry                                                    AO-AR-03-002
 Clerks in the San Francisco Business Mail Entry Unit



                                              AUDIT RESULTS
    Assessment of                    Our review disclosed that workhours at the San Francisco
    Employees’                       Business Mail Entry Unit were excessive in relation to the
    Workhours                        number of business mailings processed. Postal Service
                                     policies2 require that business mail entry units ensure the
                                     efficient use of workhours. FYs 2001 and 2002 mailings per
                                     workhour for the San Francisco Business Mail Entry Unit
                                     were markedly below benchmarked units. Postal Service
                                     management agreed that 18,000 workhours could be
                                     eliminated based on business mail volumes, benchmark
                                     data, and observations of business mail operations. The
                                     following chart depicts average productivity levels for the
                                     San Francisco Business Mail Entry Unit, and benchmark
                                     sites.

                                                                                                       MAILINGS
                                                                                                          PER
                                                             LABOR                                    WORKHOUR
                                                         DISTRIBUTION NUMBER MAILINGS PER                 FOR
                                                  Fiscal    CODE 79     OF   WORKHOUR FOR             BENCHMARK
                                                   Year WORKHOURS MAILINGS SAN FRANCISCO                 SITES
                                     San
                                     Francisco 2001         53,316       45,539           .85              1.47
                                     San
                                     Francisco 2002         49,537       41,117           .83              1.45
                                     Growth
                                     Rate                   -7.1%         -9.7%

                                     FYs 2001 and 2002 mailings per workhour for the
                                     San Francisco Business Mail Entry Unit were .85 and
                                     .83 while the averages for comparable3 business mail
                                     entry units were 1.47 and 1.45, respectively. Appendix A
                                     highlights how the San Francisco Business Mail Entry Unit
                                     compared to similar sites for mailings per workhour for
                                     FY 2002.

                                     In addition, mailings per workhour trends since the
                                     beginning of FY 2001 show that San Francisco business
                                     mail acceptance productivity is significantly lower than the
                                     national and Pacific Area performance.

                                     The San Francisco Business Mail Entry Unit maintained
                                     the largest number of employees when compared to

2
    Handbook DM-109, Business Mail Acceptance, Chapter 2.
3
    Comparative sites have revenue greater than $40 million and mailings within +/- 10 percent of San Francisco.



                                                             4
Efficiency of Work Performed by Business Mail Entry                                                     AO-AR-03-002
 Clerks in the San Francisco Business Mail Entry Unit


                                   comparable sites for FY 2002. While not unusual by itself,
                                   there is cause for concern when productivity measures are
                                   below expectations. Appendix B highlights how the
                                   San Francisco Business Mail Entry Unit compared to other
                                   similar sites for the number of employees.

                                   To corroborate our analysis, observations of the San
                                   Francisco Business Mail Entry Unit revealed that employees
                                   had excessive idle time. This can be attributed to:

                                        •    Inconsistencies between bulk mail entry unit hours
                                             of operation and mail arrival times.

                                        •    Low mailing volumes per workhour.

                                        •    Business mail entry unit managers not evaluating and
                                             adjusting staffing levels based on current mail
                                             volumes.

                                   Other factors that contributed to business mail acceptance
                                   inefficiencies were:

                                        •    Poor business mail entry unit design, which resulted
                                             in excessive business mail handling.

                                        •    Bulk mail entry unit employees performing
                                             unnecessary functions.

    Management’s Actions           To improve productivity, Postal Service managers agreed to
                                   reduce business mail entry workhours in the San Francisco
                                   Business Mail Entry Unit by 18,000 hours by the end of
                                   FY 2006 primarily through attrition. While holding mail
                                   volume constant, these actions would raise productivity to
                                   approximately 1.30 mailings per workhour based upon
                                   FY 2002 mailings and hours and would save the Postal
                                   Service approximately $6.94 million over the next 10 years.
                                   Appendix C details the financial impact of workhour
                                   reductions planned by the San Francisco Business Mail
                                   Entry Unit.




4
 Based on Postal Service’s methodology, the cost avoidance was projected over 10 years using Postal Service’s
assumptions for annual workhours, the business mail entry clerk labor rate, and the latest labor escalation factor.



                                                            5
Efficiency of Work Performed by Business Mail Entry                                 AO-AR-03-002
 Clerks in the San Francisco Business Mail Entry Unit



 Recommendations                To improve business mail entry productivity, we recommend
                                the manager, San Francisco District:

                                1. Reduce business mail entry hours as planned.

                                2. Periodically evaluate staffing to determine if further
                                   workhour reductions are necessary based on workload.

 Management’s                   Management agreed with our finding and recommendations.
 Comments

 Evaluation of                  Management’s comments are responsive to the
 Management’s                   recommendations. Management’s actions, taken
 Comments                       or planned, should correct the issues identified in the
                                report.




                                                        6
                                     Efficiency of Work Performed by Business Mail Entry                                                           AO-AR-03-002
                                      Clerks in the San Francisco Business Mail Entry Unit


                                                                                       APPENDIX A

                                         FY 2002 MAILINGS PER WORKHOUR AND TREND COMPARISON
                                            FOR THE SAN FRANCISCO BUSINESS MAIL ENTRY UNIT

                                                       FISCAL YEAR 2002 MAILINGS PER WORKHOUR

                                           SAN FRANCISCO BMEU                                0.83
                                                SOUTHERN BMEU
                 COMPARATIVE SITES




                                              LANCASTER BMEU
                                          VAN NUYS - BULK MAIL
                                              LITTLE ROCK BMEU
                                                  BMEU-MEMPHIS
                                             BMEU FORT WORTH
                                                  NEWARK BMEU
                                                 BMEU-PALATINE
                                         SHAWNEE MISSION BMEU
                                             WASHINGTON BMEU
                                              BMEU ROYAL OAK
                                                  RALEIGH BMEU
                                              ROCHESTER-BMEU
                                              SMITHTOWN BMEU
                                           COLUMBUS-BULK MAIL

                                                               0.00         0.50         1.00           1.50      2.00         2.50        3.00         3.50         4.00
                                                                                                            AVERAGE 1.43
                                                            Comparative sites have revenue > $40 million and mailings w ithin +- 10 percent of San Francisco mailings.
                                                            BMEU - Business Mail Entry Unit




                                                                           Mailings Per Workhour Trends

                                       2.00
Mailings Per Workhour




                                       1.75
                                       1.50
                                       1.25
                                       1.00
                                       0.75
                                       0.50
                                       0.25
                                       0.00
                              1 Y 1
                              13 Y 2 1
                            AP FY 001
                            AP FY 001




                              1 Y 2
                              13 Y 2 2
                            AP FY 002
                            AP FY 002
                            AP FY 01
                            AP FY 001
                            AP FY 01
                            AP FY 001
                            AP FY 001
                            AP FY 001
                            AP FY 001

                              1 Y 1
                              1 Y 1




                            AP FY 02
                            AP FY 002
                            AP FY 002
                            AP FY 002
                            AP FY 002
                            AP FY 02
                            AP FY 002

                              1 Y 2
                              1 Y 2




                            AP FY 003
                            AP FY 003
                            AP FY 003
                            AP FY 03
                            AP FY 003

                                       3
                                      03
                           AP 9 F 200
                           AP 0 F 200
                           AP 1 F 200
                           AP 2 F 200




                           AP 9 F 200
                           AP 0 F 200
                           AP 1 F 200
                           AP 2 F 200




                                 FY 0
                               2 20


                               4 20




                               2 20




                               7 20




                               5 20


                               7 20
                                   20
                               1 2




                               1 2
                               3 2


                               5 2
                               6 2
                               7 2
                               8 2




                               3 2
                               4 2
                               5 2
                               6 2


                               8 2




                               2 2
                               3 2
                               4 2


                               6 2
                            AP FY
                               1
                            AP




                                                                                          AP - Accounting Period
                                                 National                                    Pacific Area                                      San Francisco




                                                                                                    7
                    Efficiency of Work Performed by Business Mail Entry                                                        AO-AR-03-002
                     Clerks in the San Francisco Business Mail Entry Unit


                                                                   APPENDIX B

                            FY 2002 TOTAL BUSINESS MAIL ACCEPTANCE STAFFING
                                           (LDC 79) COMPARISON




                       COLUMBUS-BULK MAIL
                          SMITHTOWN BMEU
                              RALEIGH BMEU
                              NEWARK BMEU
                           BMEU ROYAL OAK
Comparative Sites




                       VAN NUYS - BULK MAIL
                             BMEU-PALATINE
                          ROCHESTER-BMEU
                         BMEU FORT WORTH
                    SHAWNEE MISSION BMEU
                          LITTLE ROCK BMEU
                             BMEU-MEMPHIS
                           LANCASTER BMEU
                         WASHINGTON BMEU
                           SOUTHERN BMEU                                                                                                         34
                       SAN FRANCISCO BMEU

                                              0            5             10             15             20             25             30               35

                                                                                Number of Employees
                                           Comparative sites have revenue > $40 million and mailings within +/- 10 percent of San Francisco mailings.
                                           BMEU - Business Mail Entry Unit




                                                                                8
Efficiency of Work Performed by Business Mail Entry                                        AO-AR-03-002
 Clerks in the San Francisco Business Mail Entry Unit




                                            APPENDIX C

  SAN FRANCISCO BUSINESS MAIL ENTRY UNIT COST AVOIDANCE
                (FUNDS PUT TO BETTER USE)

                                           Yearly
                                                             Fully Loaded          Cost Avoidance
                                          Workhour
                     Year                                    Labor Rate/Hr    (10 Years with escalation)
                                          Reduction

        FY 2004                             5,400               $ 40.84              $ 2,760,801
        (Effective Accounting Period 1)
        FY 2005                             5,400               $ 42.84              $ 2,896,080
        (Effective Accounting Period 1)
        FY 2006                             7,200               $ 44.94              $ 4,050,651
        (Effective Accounting Period 1)
          Totals (10 full fiscal years)    18,000                                    $ 9,707,532
                                                            Present Value @
                                                                                     $ 6,963,499
                                                              5%, 10 Years




SOURCE

    •    Workhour Reductions were based on the United States Postal Service San Francisco Area Action
         Plan.

ASSUMPTIONS

    •    Labor rates were based on the United States Postal Service 2003 Published Rates for a PS-06
         Business Mail Entry Unit technician.

    •    Yearly Escalation Factor is 4.9 percent.

    •    Postal Service Cost of Borrowing is 5 percent.

FUNDS PUT TO BETTER USE -- Funds that can be used more efficiently by implementing
recommended actions.




                                                        9
Efficiency of Work Performed by Business Mail Entry          AO-AR-03-002
 Clerks in the San Francisco Business Mail Entry Unit


                   APPENDIX D. MANAGEMENT’S COMMENTS




                                                        10
